Audit Report



Return
    to the USDOJ/OIG Home Page




Office of Community Oriented Policing Services Grants 
to the City of Paterson Police DepartmentPaterson, New Jersey

GR-70-03-001


November 2002
Office of the Inspector General


EXECUTIVE SUMMARY

The Office of the Inspector General, Audit Division, has completed an audit of grants awarded by the Office of Community Oriented Policing Services (COPS) to the City of Paterson, New Jersey, Police Department (Paterson).  The purpose of the grants is to enhance community policing.  Paterson was awarded a total of $5,558,265 to hire 60 new police officers and redeploy the equivalent of 20.9 existing full-time police officers from administrative duties to community policing.
We found Paterson to be in material non-compliance with COPS's grant requirements.  We reviewed Paterson's compliance with seven essential grant conditions and found weaknesses in four of the seven areas we tested:  local match requirements, reimbursement requests, retention of officer positions, and redeployment tracking.  As a result of the deficiencies identified below, we question $1,083,338 in grant funds received and recommend an additional $1,987,663 be put to better use.1

Paterson did not maintain records of local matching funds for the MORE 95 grant.
Paterson did not expend grant funds prior to the grant end date for the UHP grant and had received UHP funds after the grant had expired.
Paterson requested and received an amount in excess of actual costs for the MORE 95 grant.
Paterson did not expend grant funds prior to the grant end date for the MORE 98 grant.
Paterson did not have adequate retention plans for its hiring grants.
Paterson did not have a plan for tracking the redeployment resulting from its MORE 98 grant.

These items are discussed in detail in the Findings and Recommendations section of the report.  Our audit objectives, scope, and methodology appear in Appendix I.


Footnotes

The Inspector General Act of 1988 contains our reporting requirements for questioned costs and funds to better use.  However, not all findings are dollar-related.  See Appendix III for a breakdown of our dollar-related findings and for definitions of questioned costs and funds to better use.